Record Press Inc., 229 West 36th Street, New Yark, N.Y.
Tel: (212) 619-4949• Fax Na. (212) 608-3141
STATE OF NEW YORK.

SS:

COUNTY OF NEW YORK

AFFIDAVIT OF SERVICE

84878

Howard Daniels being duly sworn, deposes and says that deponent is not party to the action. and is over l8 years of age.
That on the 12th day of November 2020 deponent served 3 copies of the within
BRIEF FOR AMICUS CURIAE HUMAN RIGHTS
FIRST AND INTERNATIONAL LAW SCHDLARSIN SUPPORT OF RESPONDENTS
upon the attorneys at the addresses below, and by the following method:
BY FEDERAL EXPRESS NEXT BUSINESS DAY DELIVERY
Jeffrey B. Wall
United States Department of Justice
950 Pennsylvania Avenue. NW
Washington, District of Columbia 20530
(202) 514-2217

Paul W. Hughes
McDermott Will fi Emery
500 North Capitol Street. NW
Washington, OC 2000!-1531
(202) 758-898/

Attorneys for Petitioner

Attorneys for Respondents

![J_J '

I. Howard Daniels, declare under penalty of perjury under the laws of the United States of America that the foregoing is true and
correct. executed on November 12. 2020, pursuant to Supreme Court Rule 29.5(c). All parties required to be served, have been

~Jc

served.

Howard Daniels

Swarn ta me this
November 12. 2020
Alessandra Kane
Notary Public. State of New York
No. OIKA6340521
llualified in Richmond County

Notary Public

Case Name: Tany H. Pham v. Maria Angelica Guzman Chavez
Docket/Case Na. 19-897

